No.

In the Supreme Court of the United States
Henryk S. Borecki, Petitioner
v.
United States Department of Homeland Security
&

Arizona Department of Transportation

For the Supplemental Petition for Writs
of Habeas Corpus & Mandamus
These are the petitioner’s answers to the questions on Form AO 242:

1.

Henryk S. Borecki.
No other names have been used.

2.

United States of America and its States and Territories.
My identification numbers are:

349-48-8360
450-98-6740
IL B620-3375-3107
TX 05028048
AZ D01249522
TX 02657500
IL 3123794

04-14-53
YC 763040
CE 347897
A g gg4 934
8460198
8463026
A 3561818

12

3.

HI Federal authorities HI State authorities HI Other
Will not give REAL Travel ID to petitioner.

4.

HI Other (explain)'. [Apr 27, 2021. DHS]
“The deadline is now postponed until May 3, 2023.”

5.

Decision or Action You are Challenging:
0 The lack of REAL Travel ID — without a hearing — after
presenting all of the aforementioned identification numbers to
federal and state authorities.

6.

More information and detail:
January 16, 2020:
January 24, 2020:
December 14, 2020:
March 10, 2021
March 22, 2021
March 29, 2021
April 14, 2021:

Interview at ADOT
Request for ADOT hearing
Request to DHS General Counsel
Civil action No. CV21-00415-PHX-MTL
“failure to state a claim for relief’
Appeal No. 21-15572
“dismissed for lack ofjurisdiction”

6(d): Still no REAL Travel ID.
7.

Your Earlier Challenges of the Decision or Action:
Yes 0 Appeal

8.

Yes 0 Grievance Yes 0 Administrative

Did you file a second appeal to a higher authority, agency or court?
0 Yes

9.

Did you file a third appeal?
0 A fourth appeal: to this Court.

10.

0 No 28 U.S.C. 2255 motion

11.

0 No Immigration Proceedings

12.

0 No other appeals
13

13.

Grounds for Your Challenge in This Petition:
As a citizen of the United States of America, petitioner is entitled to
interstate domestic travel within the jurisdiction of this nation, just like
everyone else who has already obtained a REAL Travel ID.

14.

Any other grounds?
0 No

15.

State exactly what you want the court to do:
The same thing that petitioner requested in the first place on
January 16, 2020, from the administrative agency, to wit: issue Travel
ID. In addition, the petitioner requests the special damages delineated in
the complaint, and a published opinion by this Court, if warranted.

Declaration Under Penalty of Perjury
I, Henryk S. Borecki, declare under penalty of perjury, that I have read this
petition, and the information in this petition is true and correct. I understand that a
false statement of a material fact may serve as the basis for prosecution for
perjury.

Date: July 28, 2021
Henryk S. Borecki
Petitioner

14

